Report No. D-2010-003                      October 22, 2009




    Defense Finance and Accounting Service Contract for
        Military Retired and Annuitant Pay Functions
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACS                           Affiliated Computer Services
CGA                           Continuing Government Activity
CNA                           Center for Naval Analyses
DFAS                          Defense Finance and Accounting Service
DVA                           Department of Veterans Affairs
IG                            Inspector General
OIG                           Office of the Inspector General
OMB                           Office of Management and Budget
                                   INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DR IVE 

                             ARLINGTON , VIRGINIA 22202- 4704 





                                                                         October 22, 2009

MEMORANDUM FOR DIRECTOR, DEFENSE FfNANCE AND ACCOUNTfNG
              SERVICE

SUBJECT: Defense Finance and Accounting Service Contract for Military Retired and
         Annuitant Pay Functions (Report No . D-2010-003)


We are providing this repOit for review and comment. The audit was requested by
Congressman Dennis J. Kucinich. We considered management comments on a draft
report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
conunents from the Defense Finance and Accounting Service were only partially
responsive. Therefore, we request additional comments on Recommendations I. band I.c
by November 23,2009.

Please provide comments that conform to the requirements of DOD Directive 7650.3. If
possible, please send a .pdf file containing your comments to audacm@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified conlllents electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).



                                        ~~   RicharfB. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-003 (Project No. D2008-D000CH-0262.000)                           October 22, 2009

                Results in Brief: Defense Finance and
                Accounting Service Contract for Military
                Retired and Annuitant Pay Functions

What We Did                                                   What We Recommend and DFAS
At the request of Congressman Dennis J. Kucinich,             Actions Taken During The Audit
we reviewed the Defense Finance and Accounting                We recommend that the Director, DFAS, review the
Service (DFAS) contract for military retired and              performance of the contracting officers and the
annuitant pay functions. Specifically, we reviewed            objectivity of the CGA Director and exhaust contract
contractor performance, costs, and staffing, as well as       remedies to pursue a refund of $547,236 for
the Government’s management of the contract. We               performance deductions not taken during the course
also performed a limited review of policies and               of the contract. We also recommend that the
procedures for voucher prepayment examination.                Director seek reimbursement of the $168,021 spent
                                                              supplementing the Lockheed Martin call center.
What We Found
The DFAS Continuing Government Activity (CGA) did             On December 22, 2008, DFAS completed a business
not adequately monitor contractor performance for six         case analysis to evaluate future sourcing options for
of the seven critical performance standards on its            the military retired and annuitant pay functions. On
$346 million (10-year) services contract with Lockheed        April 20, 2009, DFAS announced that in early 2010,
Martin for the military retired and annuitant pay             DFAS would transition the military retired and
functions. DFAS also did not collect $547,236 in              annuitant pay functions to a Government operation
deductions for unsatisfactory performance.                    performed by DOD civilians. The business case
                                                              analysis showed that having DOD civilians perform
The call center for military retired and annuitant pay        the work would result in more than $20 million in
functions operated by Lockheed Martin was                     funds put to better use over the next 10 years,
providing service to DFAS callers that is far below           provide improved flexibility, and reduce risks to
industry standards. For 2008, the call center                 operations.
monthly average call abandonment rates ranged
from 11.0 to 40.6 percent compared to an industry             Management Comments and
standard of 4.0 percent. In addition, time to answer          Our Response
calls ranged from 108 to 280 seconds compared to
                                                              The Director, DFAS Cleveland, disagreed with all
an industry standard of 26 seconds.
                                                              three recommendations. However, the response for
                                                              one recommendation met the intent. The Director
In September 2006, Department of Veterans Affairs
                                                              stated that DFAS does not have a bi-lateral
(DVA) identified more than 133,000 recipients of
                                                              agreement with the contractor on the performance
Combat-Related Special Compensation or
                                                              standards, and therefore, is not entitled to
Concurrent Retired Disability Payment potentially
                                                              deductions. We disagree with the Director’s
eligible for additional retroactive compensation.
                                                              conclusion because both the contracting officer and
The DFAS CGA did not have any standard
                                                              the contractor signed the modification implementing
procedures to conduct pre-payment reviews of DVA
                                                              new performance standards. In addition, the
retroactive payrolls until March 20, 2009, and
                                                              Director stated that DFAS was offered a
Lockheed Martin had updated its review procedures
                                                              reimbursement for supplementing the Lockheed
several times increasing the likelihood of payment
                                                              Martin center, but, DFAS did not provide
errors. In addition, DFAS staff supplemented the
                                                              documentation to support the reimbursement. We
Lockheed Martin DVA retroactive call center at a
                                                              request that the Director, DFAS, provide additional
cost of $168,021, so contractor staff could be
                                                              comments in response to this report. Please see the
reassigned to process retroactive payrolls.
                                                              recommendations table on the back of this page.

                                                          i
Report No. D-2010-003 (Project No. D2008-D000CH-0262.000)        October 22, 2009

Recommendations Table

Management                  Recommendations            No Additional
                            Requiring Comment          Comments Required
Director, Defense Finance   1.b. and 1.c.              1.a.
and Accounting Service

Please provide comments by November 23, 2009.




                                          ii
Table of Contents

Results in Brief                                                                i


Introduction                                                                    1


       Objectives                                                               1

       Contract History and Prior Issues                                        1

       Defense Finance and Accounting Service Actions Taken During The Audit    5

       Review of Internal Controls                                              5


Audit Results                                                                   6


       Recommendations, Management Comments, and Our Response                  13 


Appendices

       A. 	Scope and Methodology 	                                             16 

              Prior Coverage                                                   17 

       B. Congressional Request 	                                              18 


Management Comments

       Defense Finance and Accounting Service 	                                20 

Introduction
Objectives
The overall objective of the audit was to review the Defense Finance and Accounting
Service (DFAS) contract for military retired and annuitant pay functions. Specifically,
we reviewed contractor performance, costs, and staffing, as well as the Government’s
management of the contract. We also performed a limited review of policies and
procedures for voucher prepayment examination. See the Appendix A for a discussion of
scope and methodology and prior audit coverage.

Contract History and Prior Issues
Public-Private Competition for the Military Retired and Annuitant Pay Functions.
In December 1997, DFAS announced the decision to perform a cost comparison of the
military retired and annuitant pay functions. The cost comparison is a public-private
competition process required by the Office of Management and Budget (OMB) Circular
No. A-76 “Performance of Commercial Activities” to compare the cost of Government
performance with contract performance. The cost comparison included about
650 positions at 2 DFAS locations, about 500 positions at DFAS Cleveland, and about
150 positions at DFAS Denver. These 2 locations processed payments totaling about
$2.6 billion per month for 2.5 million military retirees and annuitants.

On April 15, 1999, DFAS issued a solicitation requesting private sector proposals for
performance of the military retired and annuitant pay functions for a 5-year period.
However, in August of the same year, DFAS cancelled the solicitation due to
management concerns that the performance work statement was not performance-based
and industry concerns on complexity. On September 11, 2000, DFAS issued another
solicitation requesting proposals for performance of the military retired and annuitant pay
functions for a 10-year period. One contractor, Affiliated Computer Services (ACS),
Government Services Inc. submitted a proposal to the solicitation. The contracting
officer determined that the contractor’s proposal was acceptable and responsive to the
requirements of the solicitation. The contracting officer then compared the total cost of
contract performance with the total cost of in-house performance to determine a tentative
cost-comparison decision.

On June 15, 2001, DFAS announced the tentative decision to award the contract to
ACS Government Services Inc. The American Federation of Government Employees
Locals 2040 and 3283 filed an appeal. As a result, the Administrative Appeal Authority
corrected the in-house cost estimate by reducing the operational personnel costs for
transition by $16 million. The cost comparison reflected a total adjusted cost of contract
performance of $364.7 million compared to a total cost of in-house performance of
$366.6 million, representing a difference of $1.9 million in favor of contract
performance. Therefore, the Administrative Appeal Authority issued its final decision on




                                             1


August 6, 2001, stating there was insufficient evidence to change the tentative decision.
In September 2001, DFAS awarded the contract to ACS Government Services Inc.1 The
performance period of the contract was a 4-month transition-in period, 10 1-year options,
and a 6-month transition-out period. The transition-in period began on September 28,
2001, was completed on January 27, 2002, and the contractor began the first option year
on January 28, 2002.

Congressional Inquiries. On August 14, 2001, Congressman Kucinich and three
members of Congress from Ohio sent letters to the Comptroller General, the Director of
DFAS, and the Deputy Inspector General (IG) of the Department of Defense. The letters
urged DFAS to suspend any activity aimed at completing a contract for the military
retired and annuitant pay functions and requested the Comptroller General and the DOD
Office of the Inspector General (OIG) to investigate the cost-comparison and appeal
processes. The letters identified perceived flaws that may have marred the cost-
comparison process. The issues raised included the appointment of an administrative
appeal authority, the extension of the performance period from 5 to 10 years, the costing
of the Directorate of Continuing Government Activity, and the ability of the contractor to
retain in-house technical support staff.

On August 21, 2001, the DOD OIG agreed to examine the issues raised. On
September 7, 2001, the Director, DFAS, disagreed with the assertions of error or
impropriety that were in the congressional request and stated that he believed it was his
obligation to move forward. On November 14, 2001, the Deputy IG stated that a
fact-finding review of each issue did not indicate that OMB Circular No. A-76 was
circumvented; however, provisions concerning performance periods for cost comparisons
were ambiguous and subject to interpretation. On November 15, 2001, the Deputy IG
sent a memorandum to the Under Secretary of Defense for Acquisition, Technology, and
Logistics recommending additional guidance on the issue of whether extending the
performance period beyond 5 years creates a known cost advantage for the competing
contractor.

On December 7, 2001, after a meeting with staff from the DOD OIG, staff from
Congressman Kucinich’s office sent a letter and requested that three additional issues be
reviewed:

    		 whether the Government’s in-house cost estimate showed $15 million in savings
        over the contractor’s cost proposal during the first 5 years of performance,

    		 whether an economic price adjustment clause was included in the contract, and

    		 whether DFAS had more than $70 million in unfinanced requirements for the
        military retired and annuitant pay functions.


1
 On November 25, 2003, Lockheed Martin acquired the Federal Government information technology
businesses of ACS. On May 24, 2004, DFAS modified the contract to change the contractor’s name to
Lockheed Martin Government Services, Inc.


                                                  2

DOD IG Audit. In response to the congressional request, we announced an audit of the
military retired and annuitant pay functions public-private competition in January 2002.
DOD IG Report No. D-2003-056, “Public/Private Competition for the Defense Finance
and Accounting Service Military Retired and Annuitant Pay Functions,” March 21, 2003,
addressed the issues in the congressional request and identified additional issues.

        Economic Price Adjustment Determination Error. The audit found an error in
the DFAS military retired and annuitant pay functions cost comparison with respect to
the determination of the personnel positions subject to an economic price adjustment.
Specifically, in-house personnel costs for 426 of the 503 positions were incorrectly
adjusted for inflation for the entire performance period instead of only the first year. The
most efficient organization development team, DFAS management, and the independent
review officer (DOD OIG) did not detect the error, and the competition was awarded to
the contractor based on a savings of $1.9 million ($366.6 million minus $364.7 million).
However, had the error been identified prior to award, the Government’s in-house cost
estimate would have been reduced by $31.8 million. The correct economic price
adjustment determination may have changed the outcome of the cost-comparison
decision and retained the military retired and annuitant pay functions in-house. The
report recommended that the Director, DFAS, determine a specific course of action for
the military retired and annuitant pay functions contract, to include a determination of
why a re-competition should not be held.

        Policy on Overhead Costs. The audit found that the DFAS in-house cost
estimate included $33.7 million of “operations and general and administrative” overhead
costs that were not reduced or otherwise affected by the conversion from in-house to
contract performance. DFAS followed the procedures in the OMB Circular No. A-76
Revised Supplemental Handbook and was required to use the standard 12 percent cost
factor for overhead costs because DOD did not develop and submit to OMB for approval
an accurate overhead cost factor for DOD. However, the overhead costs were not
reduced or otherwise affected and continued to be a DFAS cost. Using the mandatory
overhead cost factor affected the results of the cost comparison because reducing the
overhead costs would have lowered the Government’s in-house cost estimate.

        Contract Performance Requirements. The audit also found that the DFAS
contract for the military retired and annuitant pay functions had inadequate performance
standards. The contract performance requirements were reviewed further during this
audit; therefore, see the Audit Results section for a more detailed discussion of the prior
issue with the contract performance requirements.

Management Actions Taken and Congressional Request. In response to the DOD IG
recommendation concerning the economic price adjustment error, the Office of the
Deputy Under Secretary of Defense (Installations and Environment) tasked the Center for
Naval Analyses (CNA) on June 9, 2003, to provide an analysis of options DFAS could
pursue for the military retired and annuitant pay functions. In September 2003, CNA
issued its report and concluded that the “preponderance of evidence,” including an
estimated $42 million cost savings, favored retaining the existing contract as long as cost



                                             3


continued to be reasonable and the performance was satisfactory. The CNA analyzed
four options: retain the existing contract, return the pay functions to in-house
performance without another public-private competition, conduct a new public-private
competition, and conduct a private-private competition.

On November 20, 2003, after reviewing the CNA report, Congressman Kucinich
requested that the DOD OIG evaluate the following two aspects of the analysis:

   		 review the $42 million cost saving estimate associated with retaining the existing
       contract until the end of the 10-year performance period and

   		 explain the difference between the summary performance data and the random
       sample performance data used by the CNA to evaluate contractor performance
       and evaluate the appropriateness of CNA’s presentation of the data.

DOD IG Analysis of DFAS Sourcing Options. DOD IG Report No. D-2004-088,
“Analysis of the Defense Finance and Accounting Service Military Retired and Annuitant
Pay Sourcing Options,” June 16, 2004, disagreed with the $42 million that the CNA
estimated was a fair representation of the cost savings of the option to retain the existing
contract compared with the option to return to in-house performance because of the
methodology used. Specifically, the report discussed the following issues with the
methodology used by CNA.

   		 CNA applied a partial cost reduction to the “return to in-house performance”
       option and a full cost reduction to the “retain the existing contract” option for the
       systems work that did not materialize as anticipated in the solicitation.

   		 CNA did not include a reduction of contract administration cost for the “return to
       in-house performance” option.

As a result, the DOD IG believed that showing the estimated cost savings as a range of
$11.2 million to $41.5 million was a more fair presentation. Given that the performance
of the contractor could not be evaluated on all contractual performance requirements, the
DOD IG also disagreed with the CNA report that overall performance of the contractor
could be evaluated.

In addition, CNA did not use equivalent scales when graphically presenting similar
performance data. To illustrate the percentage of new accounts established within
30 days, CNA used a line graph with a scale of 93 to 100 to show prior Government
performance and a bar graph with a scale 0 to 100 to show contractor performance.
Contractor performance should be shown on graphs of similar type and scale to those
used to show prior Government performance.

Congressional Hearing and Request. On July 16, 2008, the House Subcommittee on
Domestic Policy, Committee on Oversight and Government Reform held a hearing on
“Examining Contractor Performance and Government Management of Retroactive Pay
for Retired Veterans With Disabilities,” during which Congressman Kucinich verbally


                                             4


requested the acting DOD IG to audit aspects of the DFAS contract. On July 21, 2008,
Congressman Kucinich requested that the acting DoD IG audit aspects of contractor
performance and Government management of work performed by the contractor for the
DFAS military retired and annuitant pay functions. Specifically, he requested the DOD
IG to review the following:

   		 contractor performance and contract costs for military retired and annuitant pay
       functions, including the Department of Veterans Affairs (DVA) retroactive
       entitlement program;

   		 contractor staffing for firm-fixed-price work, time and materials work (or other
       cost-reimbursable work), and any instance when Government staff were used to
       supplement contractor resources; and

   		 policies and procedures for voucher prepayment examination of contract
       payments for military retired and annuitant pay, including the DVA retroactive
       entitlement payments.

See Appendix B for the congressional request. On August 13, 2008, the DOD IG
announced an audit in response to the request from Congressman Kucinich.

Defense Finance and Accounting Service Actions Taken
During The Audit
On December 22, 2008, DFAS completed a business case analysis evaluating the future
sourcing options for the military retired and annuitant pay functions. The business case
analysis considered three options: contractor support (status quo), Government in-house
operation, or a hybrid option combining contactor and Government support. The analysis
was based on four criteria: customer service, flexibility/risk, cost, and complexity of
transition. The analysis recommended the option of a return to the Government in-house
operation.

On April 20, 2009, DFAS announced that in early 2010, it would transition the military
retired and annuitant pay functions to a Government operation performed by DOD
civilians. The business case analysis showed that using DOD civilians would result in
estimated savings between $22.2 million and $25.1 million over the next 10 years,
provide improved flexibility, and reduce risks to operations. The DFAS Director stated
that Government performance will allow DFAS to sustain and potentially improve
service delivery and customer satisfaction.

Review of Internal Controls
Because of the DFAS decision to in-source the retired military and annuitant pay
functions, we did not complete our review of the internal controls and do not offer an
opinion about the effectiveness of internal controls as it relates to the audit objectives.




                                              5


Audit Results
As a result of DFAS actions taken during the audit to return the military retired and
annuitant pay functions to a Government operation, we did not fully complete audit
fieldwork to evaluate the contract. However, completed audit fieldwork identified issues
with monitoring contractor performance, call center customer service, and reviews of
DVA Combat-Related Special Compensation and Concurrent Retired Disability Payment
retroactive payments.

Contractor Performance
DOD IG Report No. D-2003-056 states that the DFAS contract for military retired and
annuitant pay functions had inadequate standards in the performance requirements
summary for 7 of the 10 contract performance requirements. Four of the 10 requirements
were identified as critical, meaning a penalty would be charged for failing to meet
established quality levels. The standards were inadequate because there was no
correlation between the contract requirements and the contractor’s responsibilities for
five performance requirements and the lack of measurability for two performance
requirements. The report recommended that the Director, DFAS, rewrite the
performance requirements to include all contractor responsibilities and methods to
measure performance. The Director, DFAS, agreed with the recommendation and on
April 1, 2004, DFAS modified the contract replacing the 10 performance requirements
with 15 new performance requirements.

During the current review, we found that while the original standards combined retirees
and annuitants in the same standard, the new standards divided retired and annuitant
accounts into separate standards. The new standards address both accuracy and
timeliness, while the original standards only addressed timeliness. Of the 15 performance
requirements, 7 were identified as critical, meaning that a penalty would be charged for
failing to meet established quality levels.

Contract Performance Monitoring. The DFAS Continuing Government Activity
(CGA)2 did not adequately monitor contractor performance for 6 of the 7 critical
performance standards on its $346 million (10-year) services contract with Lockheed
Martin for the military retired and annuitant pay functions. The DFAS CGA has not
effectively monitored performance because DFAS and Lockheed Martin disagreed on
how to measure performance for the standards; DFAS experienced significant personnel
turnover in key management and oversight positions; and the implementation of the DVA
retroactive payment program caused the reallocation of CGA resources, impacting their
ability to adequately monitor performance. As a result, since 2006, DFAS has relied
primarily on Lockheed Martin’s self-assessments to determine whether the acceptable
quality levels were achieved.




2
  The DFAS CGA was established to oversee the quality of work provided by the contractor and was
responsible for conducting monthly evaluations.


                                                  6


Deductions for Unsatisfactory Performance. DFAS also has not held Lockheed Martin
accountable for not performing to contract standards. By not enforcing deductions and
appropriately addressing unsatisfactory performance, DFAS did not incentivize Lockheed
Martin to improve performance, and DFAS essentially accepted performance below
contracted levels.

We calculate that performance deductions totaling $844,686 should have been taken for
unsatisfactory performance from July 2004 through January 2009. However, DFAS took
only $297,450 in deductions over that time (DFAS assessed $431,022 in deductions but
later reimbursed $133,572). As a result, we calculate that performance deductions
totaling $547,236 for unsatisfactory performance were not enforced by DFAS (see
Table 1). The majority of the $547,236 relates to deductions not taken for performance
standard 4, “maintain existing military retired and annuitant pay accounts timely.”
                 Table 1. Deductions for Unsatisfactory Performance
             Performance Period              Lockheed             IG-        Difference
                                            Martin/ DFAS       calculated
                                             Deductions        Deductions
    July 2004 - November 2005                    $ 275,651       $ 306,967     $ 31,316


    December 2005 - January 2008                      6,202        388,082      381,880


    February 2008 - January 2009                    149,169        149,637          468
    DFAS Reimbursement (Standard 4)                (133,572)            0       133,572
    Subtotal February 2008 – January 2009          $ 15,597        149,637      134,040


                    Total                          $297,450       $844,686     $547,236

Lockheed Martin calculated the deduction amounts and reduced its monthly invoice for
failing to meet performance standards. However, the calculations made were not always
based on the fixed-price contract payment as the contract required. Therefore, our
calculations of deduction amounts differed.

Deductions totaling $275,651 from July 2004 through November 2005 were assessed for
unsatisfactory performance on performance standards 2, 4, 5, and 6. However, the
information we were provided was not sufficient to determine the total amount assessed
for each performance standard. Based on the performance and limited cost information
provided by DFAS for this period, we calculate that deductions should have totaled
$306,967 and an additional $31,316 should have been collected from Lockheed Martin.

From December 2005 through January 2008, deductions totaling $6,202 were assessed
for unsatisfactory performance that included not meeting standards 1 (November 2007)
and 6 (July 2007) in only one instance. However, we calculated that deductions totaling
$388,082 should have been assessed during that time period. Again, the primary
difference ($284,505 of $388,082) in our calculations is the deductions that relate to


                                             7


performance standard 4. According to CGA staff, DFAS and Lockheed Martin disagree
on how to measure the performance for performance standard 4 in terms of “transactions”
or “work items.” Regardless of which method was used to measure performance,
Lockheed Martin consistently did not meet contract performance levels, with the
exception of May 2005.

Performance standard 4 was consistently not met from December 2005 until June 2006,
but DFAS did not assess any deductions. We calculate that deductions of $76,281 are
due for unsatisfactory performance during that time period. Then, from July 2006
through January 2008 (19 months), DFAS stopped monitoring contractor performance on
this standard because the contracting officer decided that there was not a defined
requirement on how to monitor performance. According to CGA staff, in August 2008
(almost 3 years since problems surfaced), the CGA Director3 also decided not to pursue
deductions for the time period not monitored that we calculate amount to $208,223.

In February 2008, Lockheed Martin and DFAS resumed assessing deductions for
unsatisfactory performance on performance standard 4 and continued to assess
deductions through January 2009. However, DFAS subsequently reimbursed these
deductions, totaling $133,572, on the March 31, 2009, invoice to Lockheed Martin
because the contracting officer offered a reimbursement to Lockheed Martin during
negotiations to finalize the agreement on how this standard should be monitored. We
find the performance of the two contracting officers and the CGA Director to be
unacceptable given that this matter still remains unresolved 3½ years after problems
surfaced. In addition, we believe it was unacceptable to make agreements that did not
enforce performance deductions due from Lockheed Martin for unsatisfactory
performance on this critical standard. The Director, DFAS, needs to review the
performance and decisionmaking of the contracting officers as well as the
decisionmaking and objectivity of the CGA Director and take appropriate action.

The Federal Acquisition Regulation subpart 33.210, “contracting officer’s authority,”
authorizes the contracting officer “to decide or resolve all claims arising under or relating
to a contract . . .” Although DFAS had a clear contractual right to collect these
performance deductions, the agreements and decisions made by the contracting officers
and the CGA Director create doubt as to whether DFAS could obtain the performance
deductions from Lockheed Martin. The Director, DFAS, needs to exhaust all contractual
remedies and expeditiously pursue a refund of $547,236 plus interest from Lockheed
Martin for the performance deductions due for unsatisfactory performance.


3
  The CGA Director was employed by DFAS prior to the function being contracted out in 2001. He was then
hired by the contractor as a program manager/primary contractor representative when the function
transitioned to contractor support. He served in that role through the summer of 2004 and then worked for
the contractor on other projects until May or June of 2007. In 2007, he was then re-hired by DFAS to serve
as the CGA Director, a role he served until October 2008. He then worked as a special assistant to the
Director, DFAS Cleveland, to develop the sourcing option business case. He still receives a monthly pension
of $513.95 from Lockheed Martin for his prior service. A DFAS Assistant General Counsel advised the
agency of a potential financial interest issue for this individual. According to the Chief of Staff and the
Director of Finance, DFAS Cleveland, this issue was discussed and determined not to be significant.


                                                    8


Call Center Customer Service
The call center for military retired and annuitant pay functions operated by Lockheed
Martin was providing service to DFAS callers that was far below industry standards.
Specifically, for 2008, the call center average monthly call abandonment rates4 ranged
from 11.0 to 40.6 percent compared to an industry standard5 of 4.0 percent, as shown in
Figure 1.
                    Figure 1. Military Retired and Annuitant Pay Center Abandoned Calls
                 45.0
                                                                                                                                         40.6
                 40.0
                                                                                                                    37.8
                                            34.9                                                                                  36.9
                 35.0
                        31.5
                                                        31.8
                 30.0

                                                                                                               25.9
    Percentage




                 25.0


                 20.0
                                    18.5
                                                                   15.6                             15.5
                 15.0
                                                                             11.1
                                                                                         11.0
                 10.0


                  5.0


                  0.0
                        Jan-08   Feb-08    Mar-08   Apr-08     May-08     Jun-08    Jul-08      Aug-08     Sep-08     Oct-08   Nov-08    Dec-08
                                                                              Month
                                            Military Retired and Annuitant Pay Call Center Percentage of Abandoned Calls
                                            Industry Benchmark for Abandoned Calls of 4.0 Percent


Renegotiation of Performance Standards. The original performance standards for
customer service required the contractor to answer 80 percent of the calls within
20 seconds and to resolve pay problems within 30 calendar days of the notification.
Also, there was no penalty for failing to meet these standards. DOD IG Report
No. D-2003-056 found that these performance requirements were not evaluated against
the established standards because DFAS did not have a system in place to measure how
quickly a call was answered. The report recommended that the Director, DFAS, rewrite
the performance standards and change the standards for customer service to critical,
meaning that a penalty would be charged for failing to meet established quality levels.

The Director, DFAS, agreed with the recommendation and in May 2003, began
renegotiating all performance standards with the contractor. During the negotiations, the
contractor recommended a tiered standard for customer service based on the volume of


4
 Call abandonment rate is the percent of callers who hang up before talking to a service representative.
5
 The industry standards were taken from the “Defense Finance and Accounting Service Retired and
Annuitant Pay Call Center Benchmark Study,” March 2003 conducted by Deloitte & Touche.


                                                                               9

calls received. DFAS accepted the tiered standard and included it in the April 1, 2004,
modification as the new call center performance standard, focusing the standard on the
average speed of answer. Table 2 shows the revised performance standard. However,
DFAS did not implement the previous DOD IG recommendation because it did not
provide a penalty for failing to meet the performance standard.
                                         Table 2. Average Speed of Answer
                          Volume of Total                 Average Speed of                     Approximate
                          _Monthly Calls_                 Answer (Seconds)                       Minutes
                          Up to 90,000                          35-45                             0.75
                          90,001-120,000                            55-60                             1.0

                          120,001-150,000                        145-155                              2.5
                          150,001-180,000                        235-245                              4.0
                          More than 180,000                      295-305                              5.0

Call Center Performance. Figure 2 shows that while Lockheed Martin’s call center
performance met the performance standard in 2008, the time to answer calls ranged from
108 (1 minute, 48 seconds) to 280 seconds (4 minutes, 40 seconds) compared to an
industry standard of 26 seconds. Further, with this tiered average speed of answer
performance standard, it seems unlikely that the contractor would ever fail to meet the
performance standard ranging from 4 to 5 minutes based on call volume.
       Figure 2. Military Retired and Annuitant Pay Call Center Average Speed of 

                Answer Compared with Contract and Industry Standards 

             350


             300
                                                                                                            280
                                      266                                                                             260
                                                                                                250                         247
             250                               239

                    204
             200
   Seconds




                             177
                                                         162                          164
             150

                                                                   108      112
             100


              50


              0
                    Jan-08 Feb-08    Mar-08 Apr-08 May-08 Jun-08           Jul-08 Aug-09 Sep-08 Oct-08            Nov-08 Dec-08
                   263,738 259,757   262,571 241,465 163,805 171,831      177,429 166,144 193,655 222,612         186,918 250,911
                                                            Volume of Calls per Month

                                        Military Retired and Annuitant Pay Call Center Average Speed of Answer
                                        Contract Established Acceptable Average Speed of Answer per Volume of Calls
                                        Industry Benchmark of 26 seconds for the Average Speed of Answer




                                                                   10


The unsatisfactory performance of the military retired and annuitant pay call center
occurred because the renegotiated call center performance standard actually reduced
requirements and defined satisfactory performance well below industry standards, and
DFAS did not establish penalties for failing to provide an acceptable level of
performance. As a result, DFAS callers with questions about military retired and
annuitant pay functions have not received satisfactory service since the functions were
contracted to Lockheed Martin. Further, DFAS did not obtain the expected service for
customers when it contracted the military retired and annuitant pay functions in 2001.
Because DFAS will in-source the functions in early 2010, we did not make a
recommendation relating to call center performance.

Veterans Affairs Retroactive Payments
In September 2006, DVA identified more than 133,000 recipients of Combat-Related
Special Compensation or Concurrent Retired Disability Payment potentially eligible for
additional retroactive compensation. Since then, DFAS, in coordination with the DVA,
has processed all of the original cases as of June 8, 2008. Throughout the project DVA
identified additional retirees that were prospectively eligible for retroactive payments.
The agency also resubmitted accounts, from the original 133,000, for potential
supplementary entitlements. Those accounts, classified as “new and returning,” were
processed as of June 29, 2008. Those people identified with potential eligibility for
retroactive payment after January 2008, were placed in a category referred to as
“ongoing.” The ongoing category documents the most recently received new and
returning DVA cases. CGA personnel stated that there is an average of 3,500 new
accounts established each month; in December 2008, there were 5,000 new accounts. In
May 2009, DFAS officials stated that as many as 39,000 military retirees were left out of
the original recipients to receive retroactive payments, but DFAS expected to process
these accounts by July 15, 2009. As of August 2009, DFAS officials stated that the
processing of these accounts had not been completed because the number of military
retirees left out the original recipients group had grown to 75,000. DFAS officials
expected all accounts to be processed by the end of 2009.

Calculation Process. The audit team observed a Lockheed Martin technician
demonstration of the process used to calculate a military retiree’s retroactive payment.
The process is manually intensive and is very complex. The technician had to review and
retrieve data from 10 to 20 screens from several different data sources and manually input
the information into a spreadsheet. The Lockheed Martin DVA Retroactive Pay program
director stated that a technician completes an average of 2.5 payment calculations a day.
With the calculation being mostly a manual input process, a typographical error is highly
possible leading to incorrect payments. In addition, the complexity of the process means
that most retirees are unable to determine if the payments they receive are accurate.




                                           11


Payroll Categories and Review Method. The retroactive payrolls were separated into
five categories based on the payment amount and who was responsible for making the
retroactive payment. Table 3 lists the categories of payrolls and the associated review
method.
                                Table 3. Payroll Categories and
                                  Associated Review Method
                              Payrolls                             Review Method
                 DFAS payment > $2,500                                     All
                 DFAS payment < $2,500                                  Sample*

                 DVA payment only                                       Sample*
                 Zero Balance Due                                       Sample*
                 Negative Balance Due                                   Sample*


                 *Sampling plan created by DFAS statisticians, selection of accounts by
                 “Ez-Quant” sampling method.

Pre-Payment Review Processes. The DFAS CGA did not have any standard operating
procedures to conduct pre-payment reviews of DVA retroactive payrolls until March 20,
2009, and Lockheed Martin review procedures had been updated several times, the most
recent revision was effective November 24, 2008. DFAS also considers it acceptable for
payrolls to have a 97 percent or greater accuracy rating and certifies and processes
payrolls achieving this standard. As a result, payrolls were processed with varying
degrees of review increasing the likelihood that erroneous payments were made. Because
DFAS will in-source the functions in early 2010, we did not make a recommendation
relating to reviews of retroactive payrolls.

Other Matter of Interest – Staffing
Congressman Kucinich requested that the DOD IG review the staffing of the contract,
including any instance when the Government supplemented the contractor. In its
technical proposal, ACS proposed to have 451 employees on board at the end of
transition and to have staffing down to 255 employees by the eighth year of the contract.
ACS proposed technology improvements to accomplish the staff reductions. In
September 2006, prior to the DVA retroactive processing, Lockheed Martin had reduced
staffing to 397 employees. However, due to the new DVA workload, staff reductions did
not occur as planned. As of September 2008, Lockheed Martin had 611 staff assigned to
military retired and annuitant pay. According to the Lockheed Martin organizational
chart, DVA retroactive processing consisted of 193 staff, including temporary employees.

According to the Director, Finance Systems Support for DFAS Cleveland, DFAS staff,
consisting of seasonal employees hired by contract, provided supplemental support
answering calls made to the Lockheed Martin DVA retroactive call center from March
through June 2008. DFAS also assisted with verifying data in award letters. DFAS
helped Lockheed Martin so staff could be reassigned to assist with the backlog of DVA


                                                       12


retroactive payroll processing. DFAS incurred costs of $168,021 for this work. The
Director, DFAS, needs to determine whether to seek reimbursement for the $168,021
spent supplementing the Lockheed Martin call center.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Defense Financial and Accounting Service:

        a. Review the performance and decisionmaking of the contracting officers as
well as the decisionmaking and objectivity of the Continuing Government Activity
Director and take appropriate action.

DFAS Comments
The Director, DFAS Cleveland, disagreed stating that the performance and
decisionmaking of the contracting officers and the decisionmaking and objectivity of the
Continuing Government Activity Director were reviewed for the issues identified in the
report, and DFAS concluded that actions were appropriate and there was no lack of
objectivity. She further stated that the DFAS Office of General Counsel, as the DFAS
ethics office, determined that there was no financial conflict of interest and that the DOD
Standards of Conduct Office agreed with the determination.

Our Response
Although the Director, DFAS Cleveland, disagreed with the recommendation, DFAS did
review the performance of the contracting officers and the objectivity of the Continuing
Government Activity Director. Therefore, we consider the comments responsive.
However, we question how the failure to resolve disagreements with the contractor for
more than 3 years as well as the failure to enforce the contract penalties for unsatisfactory
performance could be deemed appropriate performance for the contracting officers. We
believe that their performance was not in the best interests of DOD and the taxpayers.

The DFAS Assistant General Counsel who authored the legal opinion recommended that
management consider whether an appearance of partiality exists based on the individual’s
employment with Lockheed Martin within the past year and his prospective Lockheed
Martin pension. Pursuant to 5 Code of Federal Regulations section 2635.502 (2009),
“Personal and Business Relationships,” the determination is the responsibility of the
agency designee and not the attorney. The DFAS Cleveland Chief of Staff and the
Director of Finance stated that the issue was discussed but the discussion was not
documented. We advise that future determinations be documented and maintained by
DFAS management. No further comments are required.




                                             13


b. Exhaust all contractual remedies and expeditiously pursue a refund of $547,236
plus interest from Lockheed Martin for the performance deductions due for
unsatisfactory performance.

DFAS Comments
The Director, DFAS Cleveland, disagreed stating that the Government does not have a
right to these deductions. The Director stated that the contractual performance standard
for performance standard 4 and its implementation was not agreed upon by the
Government and the contractor. Further she stated that although numerous attempts were
made, there was never a bi-lateral agreement on the measures incorporated through
written contract modifications.

Our Response
The DFAS comments are not responsive. Contract modification P00026 (effective
April 2004) implemented the new performance standards for the contract to include
performance standard 4. The modification was signed by both the contractor’s contracts
manager and the DFAS contracting officer. There were no subsequent modifications to
that agreement relating to performance standard 4. In addition, Lockheed Martin
reported on its self-assessments that it consistently failed to meet the required
performance level and assessed deductions on invoices for failing to perform. Clearly,
Lockheed Martin believed it was required to perform based on the contract modification
and acted appropriately. We question the DFAS conclusion that it did not and does not
have a contractual right to these performance deductions. As discussed in the report,
DFAS had a contractual right and needs to expeditiously pursue payment for
unsatisfactory performance. Given these facts, we request that DFAS reconsider its
conclusion and provide a response to the final report.

      c. Determine whether to seek reimbursement for the $168,021 spent
supplementing the Lockheed Martin call center.

DFAS Comments
The Director, DFAS Cleveland, disagreed stating that DFAS Cleveland operational
leadership directed Lockheed Martin to move a number of military retired and annuitant
pay call center employees to work on the DVA retroactive pay program and after
completion of the project, Lockheed Martin offered a credit of $46,945 representing the
cost avoidance that Lockheed Martin had by moving employees. Further, she stated that
the assertion of the audit report and the original position DFAS Cleveland leadership was
that the costs to the Government should be the level of compensation sought; however,
the Government manned the project well above the contractually mandated level of
performance. She stated that based on the tenets of good contract management, proper
use of the contracting officer authority, and consultation with the Office of General
Counsel; the Government is entitled to reimbursement only at the level that keeps all
“parties whole” in a fair and reasonable settlement, and that is what the contractor’s
reimbursement represented.




                                           14


Our Response
The DFAS comments are not responsive. The Director, DFAS Cleveland, disagreed with
the recommendation, stating that Lockheed Martin offered DFAS a credit of $46,945
representing the cost avoidance for DFAS performance of the work. Additionally, she
stated that Lockheed Martin’s reimbursement represented a fair and reasonable
settlement. Whether the offer of $46,945 constituted a credit for cost avoidance or a
settlement for inadequate performance depends on the facts and circumstances that led to
Lockheed Martin’s offer. It is unclear whether DFAS accepted the offer of credit as
savings passed to the Government due to actions taken to reduce performance costs or as
part of a settlement agreement to reimburse the Government for deficient performance
which could provide grounds for termination of the contract. DFAS did not respond to
multiple requests for supporting documentation. Further, we do not believe that this offer
would be considered fair, when the costs incurred were three times greater than the
reimbursement. We request that DFAS provide a response to the final report clarifying
whether the reimbursement was a credit for cost avoidance or a settlement for
unsatisfactory performance and provide supporting documentation, including the terms
and conditions, for acceptance of the reimbursement, if agreed to, with Lockheed Martin.




                                           15


Appendix A. Scope and Methodology
We conducted this performance audit from September 2008 through August 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our results and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our results and
conclusions based on our audit objectives. We performed the audit in response to a
request from Congressman Kucinich to review the DFAS contract for retired military and
annuitant pay functions contract. On April 20, 2009, DFAS announced its decision to in-
source the military retired and annuitant pay functions. In May 2009, after a delay of
4 months from our original request, DFAS provided, and we reviewed, a copy of the
DFAS “Business Case Analysis of Retired & Annuitant Pay,” dated December 22, 2008.
Because the DFAS decision to in-source will significantly impact the current operations
of the military retired and annuitant pay functions, we concluded our review.
Accordingly, our audit scope was limited and we did not perform a full review of DVA
retroactive payrolls and processes. We also did not complete our review of the
contracting issues identified.

We met with the DFAS Cleveland Director, Deputy Director, and Director of Finance.
We interviewed the contracting officer, contracting officer’s representative, and DFAS
CGA personnel to obtain information about the government oversight of the retired
military and annuitant pay functions contract. We reviewed the revised performance
standards that took effect in July 2004. We reviewed Lockheed Martin self-assessments
for 2006 through 2008. We obtained and reviewed contractor invoices from
February 2006 through January 2009 for deductions taken for not meeting acceptable
quality levels. For deductions taken prior to February 2006, we reviewed limited cost
information provided by DFAS.

We interviewed the Director, Finance Systems Support and obtained 2008 monthly
averages for the Lockheed Martin operated Retired and Annuitant Pay call center and
DFAS operated call centers. Specifically, we obtained average speed of answer and
abandoned calls statistics. We reviewed the, “Defense Finance and Accounting Service
Retired and Annuitant Pay Call Center Benchmark Study,” March 2003.

We met with Lockheed Martin DVA retroactive entitlement program personnel to obtain
a demonstration and understanding of the DVA retroactive payment process. We
reviewed the standard operation procedures for the DVA retroactive payment process and
the prepayment review processes conducted by Lockheed Martin and DFAS. We
obtained and reviewed Lockheed Martin organization charts.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                           16


Prior Coverage
The DOD IG has previously issued two reports discussing the DFAS retired military and
annuitant pay functions contract. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

DOD IG
DOD IG Report No. D-2004-088, “Analysis of the Defense Finance and Accounting
Service Military Retired and Annuitant Pay Sourcing Options,” June 16, 2004

DOD IG Report No. D-2003-056, “Public/Private Competition for the Defense Finance
and Accounting Service Military Retired and Annuitant Pay Functions,” March 21, 2003




                                         17

Appendix B. Congressional Request
 





    -
  HE"" .... WMMNO.~

  fOIjlAHTC!l.t.oI,.f'_
  (CIOI..I'MI./STQWM$._YOIIIK
  1'AUlf.~~mY""'"
                         ~(WYQIIIK
                                                               ONE HUNDRED TENTH CONGRESS
                                                                                                              TOOIg.tIY\1, _
                                                                                                               -..KI....ofIoIT..:1oItIUI
                                                                                                              OAN_'ON._
                                                                                                              o-I,,'OPtEJt_YS.~CIlClJT
                                                                                                              JOHN .. M<!4UCIH../oIl."W"'OAIt

                                                  QCon!lre~~                       ~niteb iPtate~
  CMOlYfl8 -.oto[l'                                                                                           JOHN ~ "'fl.OfIIoODf.
  El.I.W' E CIJMOU'IQt. toWI>\IoIO
  DtHHISJ oa..ocoNOt.OtIII)
  _1l0.0.VIII"~
                                                                    of fbe                                    _ € 1Ol.UII._
                                                                                                              1ODO~PVons.II'("""'Y""IIII
                                                                                                              CMllSt.uftON UT ....
                                                            ~Otl ~.   o( 3Repre.entn t i b e~
  JOt .. " f1EANU. WoSUCHUSETTI                                                                               JOHN J 1lI,IIOCAN• .JII , ~S$(£
                                                                                                              "'OWl. R TURHEII. GlIO
  _Ie
  _UOCYCI ...' . _
       WA!!ON. CAl.II'OAIIIIII                                                                                ~f !SS4.COU-OIIIM




                                                                                                              - ........
  SfEPHOlF    ~>'NC:tt ~nl                                                                                    I(UjHVIINICI<OINJ. rf».S
  _"IGGiNs._YOIIIK                                                                                            UlIH'" wu,IIIOIIa.MtO,Q£OIIGOO,
  JOI"IH4.Y~I\[ Hr llCln'                        COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM                 ....,Al()(l_IIIfO"._Ttl~
  8IIlJCl t.. 1IItAUY.1OWA                                                                                    ~""R)IIX.._"~
  EUNGI_S_JOIt,                                                                                                      -~
   ~flUCTOf~                                                2 157 RAYBURN HOUSE OFFice BUILDING               .... iW.J. iOHtO
  .11"I'....otIU.UM._sor..                                                                                    M_~




  II"COOI'I"A.ft-.st:f.
                                                                 WASHINGTON, DC 20515-6143
          ftOOU._.-..­
  ~oS " .... I1OI.l.£H. 1WttI.ANO
  ~AlAW
  co-rOl'l£llI...-. CON'OD:nCUT                                        _       tRIJ):QS..~OSl
  JOI"IHP_I.~                                                          ,_
                                                                        ........ poI)!2SoI'"
                                                                           _ llO'lIm.iIoI"
  Nrt.RWELDI._

                                                                    WMY.OWIfsrghl.house.goy
                                                                   July 2 1, 2008




                  Mr. Gordon Heddell
                  Acting Inspector General
                  U. S. Department of Defense Office of Inspecto r General
                  400 Anny Navy Dri ve
                  Arlington, Virginia 22202

                  Dear Mr. Heddell:

                      Thi s letter is a ronnal request ror an audit of a num ber of aspects o f contractor perfonnance
                  and government management of work performed by contractor under contracts let by the
                  Defense Finance and Accounting Service ( OFAS). It fo llows up on a number of verbal requeslS
                  I made at last week's hearing, which was entitled "Examining Contractor Perfonnance and
                  Government Management of Retroactive Retired Pay fo r Veterans with Disabil ities." At the
                  heari ng, you agreed to those requests.

                         I hereby request that you review:

                                 •   Contractor perfonnance and contrac t costs ror Military Retired and Annuitant Pay
                                     Functions, includ ing VA Retro enti tlement payments;

                                 •   Contractor staffing for finn-fIxed-price work, time and materials work (or other cost­
                                     reimbursable work), and any instances where government staff were used to
                                     s upplement contractor resources;

                                 •   Policies and procedures fo r voucher prepayment examination of contract payments
                                     for Mili tary Retired and Annuitant Pay, including VA Retro entitlemen t payments,
                                     and

                                 •   Any other issues discovered in the course of your aud it.

                     As this audit is a high priority fo r the Subcommittee and ruture hearings on the subject arc
                  envisioned, ' additionally request that you assign suffic ient numbers ofexpcrienced staff to this
                  audit to pemlit a thorough and expeditious effort by your o ffi ce.
Mr. Gordon Heddell
Act ing Inspector General
Jul y 2 1,2008
Page 2

     If you have any quest ions regarding this request, please contact Jaron Bourke, Staff Director,
at (202) 225-6427.

                                         Sincerely,


                                         1)Q/lA~ J ,~~
                                         Dennis J. Kucinich
                                         Chairman
                                         Domesti c Poli cy Subcommittee


Enclosure

cc: Darrell Issa
    Rank ing Minority Member




                              Click to add JPEG file




                                                             19
Defense Finance and Accounting Service Comments






                          DEFENSE FINANCE AND ACCOUNTING SERVICE
                                           1240 EAST NINTH STR£ET
                                            CLEVELAND OHIO 44 199




                                                                                 SEP 2 3 1009
      DF AS-JBBICL


      MEMORANDUM FOR DIRECTOR, ACQUISITION A'ID CONTRACT MANAGEMENT,
                       OFFICE OF THE INSPECTOR GENERAL, DEPARTMDIT Of
                       DEfENSE - - --- - - ------- - ---------- - -----

      SUBJECT: Office of the Inspector General Draft Report, Project No. D2008-DOOOCH-0262.000,
               "Defense Finance and Accounting Service Contract for Military Retired and
               Annuitant Pay Functions," dated August 31, 2009


           The Defense Finance and Accounting Service Cleveland is providing response to
      Recommendations La, 1.b, and I.e of the subject draft audit report in Attaclunent 1.

             lhe point of contact is                             Ican be reached at
                                                                                  ----




                                                    Martha J. Smith
                                                    Director, DFAS Cleveland

      Attachment:
      As stated

      cc:
      DF AS -HIP/IN




                                                www.dfas.mil
                                        Your Financial Partner @ Work
  DFAS Comments to DoD IG Draft Report, Project No. D2008-DOOOCH-0262.000,
    "Defense Finance and Accounting Service Contract for Military Retired and
                Annuitant Pay Functions," dated August 31, 2009.


Audit Results, Recommendations.

Recommendation La. We recommend that the Director, Defense Finance and Accounting
Service review the performance and decision making of the contracting officers as well as
decision making and objectivity of the Continuing Government Activity Director and take
appropriate action.

Management Comments. Non-ConcU!. Performance and decision making of the contracting
officers and the decision making and objectivity of the Continuing Government Activity Director
were reviewed for the issues stated. The contracting officers' actions were appropriate and did
not lack objectivity, The question of a potential financial conflict of interest on the part of the
CGA Director was raised, researched and analyzed. It was determined by the DF AS Office of
General Counsel, as the Agency's Designated Agency Ethics office, not to be a financial conflict
of interest. This determination was concurred with by the DoD Standards of Conduct Office.
Management of the C,GA changed in September 2008 to an active duty Navy officer and the
CGA will be disbanded in February 2010, Therefore, we feel no further action is required.

                              Click to add JPEG file
Completion Date. Not Applicable.


Recommendation l.b. We recommend that the Director, Defense Finance and Accounting
Service exhaust all contractual remedies and expeditiously pursue a refund of $547,236 plus
interest from Lockheed Martin for the performance deductions due for unsatisfactory
performance.

Management Comments. Non-Concur. The govenunent did not, and does not have a right to
these deductions based on the following;

The contractual performance standard for 11 #4 and its implementation was not agreed to
between the Govenunent and the contractor from April 1, 2004, forward, Although nwnerous
attempts were made, there was never a bi-lateral agreement on the measures incorporated via
Mitten contract modification. Therefore, the Government was not entitled to deductions.

Completion Date. Not Applicable.


Recommendation l.c. We recommend that the Director, Defense Finance and Accounting
Service determine whether to seek reimbursement for the $] 68,021 spent supplementing the
Lockheed Martin call center.


                                                                               Anachment 1




                                                             21
  DFAS Comments to DoD IG Draft Report, Project No. D2008-DOOOCH-0262.000,
    "Defense Finance and Accounting Service Contract for Military Retired and
                Annuitant Pay Functions," dated August 31, 2009.


Management Comments. Non-Concur. DFAS Cleveland Operational leadership directed
Lockheed Martin (LM) to move a number of Retired and Annuitant Pay call center employees to
work V A Rctro . After completion of the project, LM offered a credit of $46,945 representing
the cost avoidance that LM had by moving the employees. The assertion oftbe draft audit report
and the original position of Cleveland leadership was that the costs to the Government should be
the level of compensation sought; however, the Government manned the project well above the
contractually mandated level of performance. Based on the tenets of good contract management,
proper use of Contracting Officer authority, and consultation with the Office of General Counsel,
the Government is entitled to reimbursement only at the level that keeps all parties whole in a
Fair and Reasonable settlement, and that is what the contractor's reimbursement represents based
on the information provided by the parties in substantiation of their positions.

Completion Date. Not Applicable.




                             Click to add JPEG file




                                           2                                 Attachment 1




                                                           22
